DOUGLAS N. LETTER

BROOKS M. HANNER

GENERAL COUNSEL

ASSOCIATE GENERAL COUNSEL

TODD B. TATELMAN
PRINCIPAL DEPUTY GENERAL COUNSEL

MEGAN BARBERO

U.S. HOUSE OF REPRESENTATIVES
OFFICE OF GENERAL COUNSEL
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
(202) 225-9700
FAX: (202) 226-1360

DEPUTY GENERAL COUNSEL

JOSEPHINE MORSE
DEPUTY GENERAL COUNSEL

ADAM A. GROGG
ASSOCIATE GENERAL COUNSEL

SARAH E. CLOUSE
ASSOCIATE GENERAL COUNSEL

JONATHAN B. SCHWARTZ
ATTORNEY

January 31, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

U.S. House of Representatives v. Texas, et al., No. 19-841

Dear Mr. Harris:
Respondents’ briefs in opposition in the above-captioned case are due on February 3,
2020. Pursuant to Supreme Court Rule 15.5, petitioner expressly waives the 14-day waiting
period for distribution to the Court, so that the petition can be distributed on the February 5, 2020
distribution date. That will permit the Court to consider the petition at its February 21, 2020
conference. The House intends to file a reply brief in support of the petition by February 12,
2020.
Thank you very much for your time and assistance on this matter.
Very truly yours,
/s/ Douglas N. Letter
Douglas N. Letter
cc:

Samuel P. Siegel
Deputy Solicitor General
Office of the Attorney General
State of California
Noel J. Francisco
Solicitor General
United States Department of Justice
Kyle D. Hawkins
Solicitor General
Office of the Attorney General
State of Texas
Robert Henneke
Texas Public Policy Foundation
Center for the American Future

